Audit of USAID/Egypt’s Small and
Microenterprise Development Activities
6-263-03-002-P
March 12, 2003




                   Cairo, Egypt
March 12, 2003

MEMORANDUM
FOR:           Anne Aarnes, Acting Director, USAID/Egypt

FROM:          David H. Pritchard, Acting RIG/Cairo /s/

SUBJECT:       Audit of USAID/Egypt’s Small and Microenterprise Development
               Activities (Report No. 6-263-03-002-P)

This is our final report on the subject audit. We reviewed your comments to our
draft report and included them as Appendix II to this report.

The report contains one recommendation for USAID/Egypt to not include in its
Annual Report lending results that have not had data quality assessments. Based on
the actions USAID/Egypt took in response to our draft report, the recommendation
is closed upon report issuance.

I appreciate the cooperation and courtesy that USAID/Egypt and its contractors
extended to my staff during the audit.




                                                                                     1
Table of   Summary of Results                                           3
Contents
           Background                                                   3

           Audit Objectives                                             4

           Audit Findings                                               4

              Had USAID/Egypt administered small and microenterprise
              development activities in accordance with applicable
              USAID guidance?                                           4

              Had USAID/Egypt’s small and microenterprise development
              activities progressed towards their intended results?     7

                  USAID/Egypt Underreported Poverty
                  Lending Results In Its 2002 Annual Report             8

                  Reported Results From Two Banking
                  Institutions Could Not Be Verified                    9

           Management Comments and Our Evaluation                       10

           Appendix I – Scope and Methodology                           12

           Appendix II – Management Comments                            14




                                                                             2
Summary of   Regional Inspector General/Cairo audited USAID/Egypt’s small and
Results      microenterprise development activities to determine if: (1) the Mission
             administered its activities in accordance with applicable USAID guidance and (2)
             the activities had progressed towards their intended results. (See page 4.)

             USAID/Egypt administered small and microenterprise development activities in
             accordance with applicable USAID guidance. (See page 4.)

             In regards to intended results, USAID/Egypt’s small and microenterprise
             activities had mixed results for calendar year 2001. One indicator (poverty loans)
             exceeded its target by more than 90 percent, but another indicator (value of loans
             disbursed) fell short of its target by 15 percent. Also, the Mission had
             underreported poverty lending results in its 2002 Annual Report, and results for
             two banking institutions could not be verified. (See pages 7 through 11.)

             To address the results that could not be verified, we recommended that the
             Mission not report in future Annual Reports lending results reported by two banking
             institutions until data quality assessments of the results can be performed. (See
             pages 10 and 11.)



Background   In 1994, USAID launched a “Microenterprise Initiative” in partnership with the
             Congress. The initiative committed to expanding funding for microenterprise
             programs and set a goal that one-half of all microenterprise resources would
             support programs and institutions that provide credit to the poorest, with loans
             under $300. In October 2000, the President signed the Microenterprise for Self-
             Reliance and International Anti-Corruption Act of 2000. The purposes of the Act
             included, among others, making microenterprise development an important
             element of United States foreign economic policy and assistance, and providing
             for the continuation and expansion of USAID’s 1994 Microenterprise Initiative.

             In support of USAID’s small and microenterprise program, USAID/Egypt began
             implementing a $35 million Small Enterprise Credit Project in 1996 and an $85
             million Small and Emerging Business Project in 1997. Planned results of the
             Small Enterprise Credit Project included establishing up to 40 small business
             service units that would manage the delivery of credit, technical assistance, and
             training to small entrepreneurs. Planned results of the Small and Emerging
             Business Project included establishing up to 60 small and emerging business
             service organizations reaching operational break-even during the life of the
             project. USAID/Egypt’s strategic objective team for economic growth had
             responsibility for the two projects.




                                                                                                 3
                           Our audit focused on calendar year 2001. Cumulative expenditures as of
                           December 31, 2001, totaled $19 million for the Small Enterprise Credit Project
                           and $6 million for the Small and Emerging Business Project.


Audit                      As a carryover audit from our fiscal year 2001 audit plan, our audit aimed to
Objectives                 answer the following two questions:
                               •    Had USAID/Egypt administered small and microenterprise development
                                    activities in accordance with applicable USAID guidance?
                               •    Had USAID/Egypt’s small and microenterprise development activities
                                    progressed towards their intended results?

                           Appendix I contains a discussion of the audit’s scope and methodology.



Audit Findings             Had USAID/Egypt administered small and microenterprise development
                           activities in accordance with applicable USAID guidance?

                           USAID/Egypt administered small and microenterprise development activities in
                           accordance with applicable USAID guidance.

                           For example, in accordance with Automated Directives System (ADS) Chapter
                           219, which provides guidance on microenterprise development, the Mission’s
                           small and microenterprise development activities reached poor people and
                           women. Mission-supported microfinance institutions also reached full financial
                           sustainability, and they had annual audits of their financial statements. Some
                           specific accomplishments for calendar year 2001 included the following1:

                           •   48 percent of loans were poverty loans2 (i.e., loans of $300 or less); hence, the
                               Mission’s activities were very close to the 50 percent target established for
                               USAID by the Microenterprise for Self-Reliance and International Anti-
                               Corruption Act of 2000. This Act requires that at least 50 percent of
                               microenterprise funding go to the poor or to directly benefit them. USAID
                               uses a proxy indicator to define the poor as individuals who received a
                               poverty loan.

                           •   43 percent of loans went to women indicating that the Mission’s activities
                               were formally and effectively open to women in accordance with ADS 219.
                               The percentage also indicated that the Mission’s activities were targeting and
                               reaching women3.
 1
   Appendix I explains the methodology used to validate these accomplishments.
 2
   Included in this percentage are 2,960 poverty loans made by the National Bank for Development and the Banque du Caire
 that we were unable to verify due to an access to records issue caused by Egypt’s bank secrecy laws.
 3
   Included in this percentage are 1,528 loans made to women by the Banque du Caire that we were unable to verify due to an
 access to records issue caused by Egypt’s bank secrecy laws.

                                                                                                                          4
                         •   140,000 small or microenterprise loans totaling almost 297 million Egyptian
                             pounds ($65 million) were made4. These statistics indicated that the
                             Mission’s activities had broad outreach as called for by USAID’s
                             Microenterprise Development Policy Paper.

                         •   3 of 3 microfinance institutions with which the Mission had active agreements
                             in 2001 had reached full financial sustainability. Per ADS 219, microfinance
                             institutions are supposed to be committed to achieving full financial
                             sustainability.

                         •   The Mission had ensured that all required financial audits of its small and
                             microenterprise development activities had, in accordance with ADS Chapter
                             591, been performed.

                         Below are two photos of borrowers who benefited from USAID/Egypt’s small
                         and microenterprise development activities.




                         Photograph of a borrower (left), who mixed and sold car paints, and the loan extension
                         officer (right), who arranged for the borrower’s loan. (Cairo, Egypt, August 27, 2002)




4
 Includes loans of 43 million Egyptian pounds made by the National Bank for Development and the Banque du Caire that we
were unable to verify due to an access to records issue caused by Egypt’s bank secrecy laws.

                                                                                                                     5
Photograph of a borrower, who operated a juice shop.
(Alexandria, Egypt, September 3, 2002)




                                                       6
                          Had USAID/Egypt’s small and microenterprise development activities
                          progressed towards their intended results?

                          USAID/Egypt’s small and microenterprise development activities had mixed
                          results for calendar year 2001, and the Mission underreported poverty lending
                          results in its 2002 Annual Report5 and results for two banking institutions could
                          not be verified.

                          As illustrated in the below chart, USAID/Egypt’s small and microenterprise
                          activities surpassed their target for the number of poverty loans made during 2001
                          by more than 90 percent, but fell short of their target for the value of loans
                          disbursed by 15 percent.

                                  Comparison of Actual Accomplishments to Planned Targets

                              Performance                   2001        2001                      Percentage
                              Indicator                    Target      Actual     Difference      Difference
                              Number of loans at
                              poverty level (under         35,000      67,4026       32,402           +93%
                              $300)
                              Value of small and
                              microenterprise loans          350        2978            53            -15%
                              disbursed in Egyptian
                              pounds (in millions)7

                          Mission officials said that the number of poverty loans greatly surpassed their
                          expectations because several branch lending offices began group/poverty lending
                          programs during 2001, and the scale of their lending was much greater than the
                          Mission had anticipated.

                          In regards to the value of loans disbursed, Mission officials said that their target
                          for 2001 was primarily not met due to a change in the lending policies of the
                          National Bank for Development. The officials explained that the bank reduced
                          the amount of a microenterprise loan from LE9 10,000 to LE 3,000, which in turn
                          caused the annual volume of the bank’s loans to decrease from LE 70 million to
                          LE 25 million—a LE 45 million decrease.



5
  The 2002 Annual Report discussed results achieved during fiscal year 2001. USAID refers to these reports according the
year submitted, not the year of the reported results.
6
  Includes 2,960 poverty loans made by the National Bank for Development and the Banque du Caire that we were unable to
verify due to Egypt’s bank secrecy laws.
7
  For conversion purposes, one U.S. dollar equaled 4.6 Egyptian pounds on December 31, 2001.
8
  Includes 43 million in loans made by the National Bank for Development and the Banque du Caire that we were unable to
verify due to Egypt’s bank secrecy laws.
9
  Egyptian Pounds.

                                                                                                                           7
                         Based on the results achieved during 2001, activity managers for the Mission’s
                         microenterprise development activities adjusted their planned targets for calendar
                         year 2002. For example, they increased the planned number of poverty loans
                         from 40,000 to 70,000 loans and decreased the planned amount of loans disbursed
                         from LE 400 million to LE 360 million.

                         Based on the Mission’s explanations for having either surpassed or missed their
                         2001 targets and the subsequent revision of its targets for calendar year 2002, we
                         did not have any recommendations for the Mission’s small and microenterprise
                         activities. However, the Mission underreported poverty lending results in its 2002
                         Annual Report, and the results reported by two banking institutions could not be
                         verified. These two issues are discussed below.

                         USAID/Egypt Underreported Poverty
                         Lending Results In Its 2002 Annual Report

                         In its 2002 Annual Report, USAID/Egypt underreported an increase in the
                         number of poverty loans. Mission officials could not locate the worksheet
                         calculations used to estimate the Mission’s reported number of poverty loans.
                         Accordingly, we could neither review how the officials calculated the number of
                         poverty loans nor determine why the number of poverty loans were significantly
                         underreported. USAID/Egypt’s draft Mission Order titled “Monitoring and
                         Evaluation Policies and Procedures” required strategic objective teams to manage
                         their performance data and to ensure that paper documentation is organized and
                         accessible.

                         In its 2002 Annual Report, USAID/Egypt said, “Last year alone, the number of
                         poverty loans under $300 more than doubled from 16,000 to 34,000 loans, an
                         increase of almost $10 million in poverty lending.” However, the number of
                         poverty loans had more than quadrupled in the year 2001 to 67,402 loans.

                         The Mission’s statement that there had been “an increase of almost $10 million in
                         poverty lending” was also inaccurate. The maximum amount for a poverty loan
                         ($300) multiplied by an 18,000 increase in loans issued from 16,000 loans in
                         calendar year 2000 to 34,000 loans in calendar year 2001 would have equaled
                         $5.4 million in additional total poverty lending.

                                         Comparison of Reported and Actual Results
                                                    Result        Result
                                   Indicator        Reported      Per Audit Difference
                                   No. of Poverty
                                   Loans            34,000        67,40210   33,402



10
  Includes 2,960 poverty loans made by the National Bank for Development and the Banque du Caire that we were unable to
verify due to Egypt’s bank secrecy laws.

                                                                                                                      8
                            USAID/Egypt officials said that at the time they had to provide the Mission’s
                            program office with poverty lending results for 2001, they did not yet have
                            specific results for the entire year. Hence, they said that they estimated the
                            number of poverty loans for the last half of the year, but they could not locate the
                            worksheet calculations used to estimate the Mission’s reported number of poverty
                            loans. Accordingly, we could neither review how the officials calculated the
                            number of poverty loans nor determine why the number of poverty loans were
                            significantly underreported.

                            USAID/Egypt’s draft Mission Order titled “Monitoring and Evaluation Policies
                            and Procedures” included procedures requiring strategic objective teams to
                            manage their performance data and to ensure that paper documentation is
                            organized and accessible. Since the Mission was in the process of adopting
                            procedures requiring strategic objective teams to retain support for performance
                            data, we did not make a recommendation for the Mission to adopt such
                            procedures.

                            In regards to the statement that there had been an increase of almost $10 million
                            in poverty lending, a Mission official said that the $10 million increase was meant
                            to refer to the amount of poverty lending during 2001. That is, the official said
                            that the total amount of poverty loans (i.e., 34,000) multiplied by $300 (i.e., the
                            maximum amount for a poverty loan) equaled approximately $10 million.

                            Although the official said that the $10 million was meant to refer to the amount of
                            poverty lending in 2001, because the sentence in question discussed the more than
                            doubling of loans from 2000 to 2001, the statement “an increase of almost $10
                            million” implied an increase in poverty lending between the years 2000 and 2001,
                            which was not accurate. Mission officials concluded that the reporting error was
                            a mistake and as such, we did not make a recommendation to address it.

                            Reported Results From Two Banking
                            Institutions Could Not Be Verified

                            ADS Chapter 203.3.6.6 requires data quality assessments to be performed at least
                            once every three years on results reported for each indicator included in the
                            Mission’s Results Report and Resource Request Report11. Contrary to the above
                            ADS requirement, USAID/Egypt officials had reported poverty lending results
                            from two banks, whose data quality the Mission could not assess due to Egypt’s
                            bank secrecy laws. As a result, poverty lending information included in the 2002
                            Annual Report may not have been sufficiently complete or accurate.

                            ADS Chapter 203.3.6.6 titled “Assessing the Quality of Performance Data” says
                            that for each indicator reported in the Results Report and Resource Request
                            Report, data quality must be reassessed as needed, but no less than once every
                            three years. The chapter adds that data quality assessments include verifying and
11
     The Results Report and Resource Request or R4 Report was replaced in fiscal year 2001 by an “Annual Report”.

                                                                                                                    9
                 validating performance information and reviewing data collection, maintenance,
                 and processing procedures. Further, it says that the assessments are intended to
                 ensure that performance information is sufficiently complete, accurate, and
                 consistent.

                 Complimenting the above ADS requirement, USAID’s fiscal year 2002 Annual
                 Report Guidance dated December 3, 2001 said the following:

                        All indicators reported in the Annual Report must have had a data
                        quality assessment done within the past three years, as described in
                        ADS 203. Moreover, if no data quality assessment has been done
                        on a particular indicator then Operating Units must not report it.

                 Contrary to the above ADS and Annual Report requirements, Mission officials
                 had not performed a data quality assessment of small and microenterprise lending
                 results reported by the National Bank for Development and the Banque du Caire.
                 Hence, the Mission had not ensured that reported poverty lending information,
                 which totaled almost 3,000 loans for these two banking institutions, was
                 sufficiently complete and accurate.

                 Mission officials said that they were unable to perform data quality assessments
                 of the results reported by both the National Bank for Development and the
                 Banque du Caire because Egypt’s bank secrecy laws prevented them from having
                 access to source documents, such as loan applications, which they would need to
                 verify reported results.

                 Because USAID/Egypt could not assess the quality of data reported by the
                 National Bank for Development and the Banque du Caire, the Mission had not
                 ensured that reported poverty lending information for these two banking
                 institutions was sufficiently complete and accurate. Accordingly, we recommend
                 the following:

                        Recommendation No. 1: We recommend that the Director,
                        USAID/Egypt not report in future Annual Reports lending
                        results reported by the National Bank for Development and the
                        Banque du Caire until data quality assessments of their
                        respective results can be performed.



Management       Our draft report contained two recommendations. In response to the report,
Comments and     USAID/Egypt said that it agreed with our audit recommendations and explained the
Our Evaluation   actions it had taken to resolve the recommendations.

                 In regards to Recommendation No. 1, USAID/Egypt said that it had reached
                 agreements with both Banque du Caire and the National Bank for Development to
                 conduct periodic data quality assessments of their respective reported results to

                                                                                                     10
satisfy the data quality standards specified in ADS 203. The Mission also said (and
provided evidence supporting) that Mission staff had visited a sample of borrowers
at each bank to verify that loans were being made to actual borrowers. Further,
USAID/Egypt said that it had verified the number of poverty loans issued by the
Banque du Caire and the National Bank for Development and reported them in its
fiscal year 2003 annual report. Based on the Mission’s comments and the evidence
it submitted, the Mission has assessed the quality of data reported by the Banque du
Caire and the National Bank for Development and properly included those results in
its fiscal year 2003 annual report. Accordingly, final action has been taken on
Recommendation No. 1.

In regards to Recommendation No. 2, which was included in our draft report,
USAID/Egypt said that since the Mission will conduct data quality assessments of
all the results reported by the participating small and micro enterprise institutions,
including the Banque du Caire and the National Bank for Development, it believed
that its performance monitoring plans should remain unchanged. Based on the
Mission’s comments and its agreements with the Banque du Caire and the National
Bank for Development, which allow it to perform data quality assessments, there is
no longer a need for the Mission to revise its performance monitoring plans to state
that data quality assessment can not be performed of these banks’ results.
Accordingly, we have revised our report and removed Recommendation No. 2.




                                                                                     11
                                                                                       Appendix I




Scope and     Scope
Methodology
              We performed our audit in accordance with generally accepted government auditing
              standards and assessed USAID/Egypt’s compliance with Automated Directives
              System Chapter 219 titled “Microenterprise Development” and USAID’s
              Microenterprise Development Policy Paper. The audit also assessed whether
              USAID/Egypt’s small and microenterprise development activities had progressed
              towards their intended results for calendar year 2001.

              We performed our fieldwork at USAID/Egypt’s office in Cairo, Egypt and at six
              microfinance foundations located in Alexandria, Assiut, Cairo, Dakahlia, Port Said,
              and Sharkeya, Egypt. Fieldwork was performed from May 8 to June 16, 2002, and
              from August 25 to October 28, 2002.

              The audit scope included:

              •   Controls over the issuance of loans made by two microfinance organizations;
              •   A universe of 140,357 small or microenterprise loans totaling $65 million in
                  disbursements made during calendar year 2001, but we could not audit 17,058 of
                  these loans due to Egypt’s bank secrecy laws. These laws prevented us from
                  having access to borrowers’ loan applications and reduced the number of loans in
                  our universe to 123,299 and $55 million in disbursements;
              •   Testing 83 loans with disbursements totaling $135,108;
              •   Supporting documentation for 83 small or microenterprise loans;
              •   Interviews with 83 borrowers; and
              •   Three cooperative agreements and one financing agreement that were being
                  implemented in calendar year 2001.

              We communicated an insignificant, non-compliance issue with a control procedure
              for microenterprise reporting to Mission officials during our exit conference on
              October 28, 2002. The control procedure is described in Automated Directives
              System Chapter 291.3.6.

              Methodology

              To determine the accuracy of USAID/Egypt’s database of 123,299 loans, we chose a
              90 percent confidence level and assumed an error rate of 5 percent. We then
              randomly selected 83 loans to test. To assist us with our testing, we hired an
              Independent Public Accounting firm.

              Our tests included reviewing 83 loan applications to determine whether they had been
              signed by the borrower and a loan officer and approved by someone other than the
              loan officer. Our tests also compared information listed on the borrower’s loan
              application, such as the borrower’s name, gender, and loan amount, to that which was


                                                                                                    12
                                                                             Appendix I

recorded in the microfinance organization’s loan database. Further, we interviewed
the 83 borrowers in our sample to determine whether (a) the amount of their loan
matched the amount recorded in the microfinance organization’s loan database, (b)
they used their loan for a valid purpose, and (c) they had 15 or fewer employees,
which would qualify them for a small or microenterprise business loan.

Our tests revealed that 3 of the 83 sampled loans (3.6 percent) were invalid because
the borrower either had more than 15 employees or had used the loan for an invalid
purpose (e.g., raising livestock). Given that the error rate in our statistical sample was
less than five percent, we concluded with a 90 percent confidence level that the error
rate in the database of 123,299 loans was also less than five percent.

Since this error rate fell below our five percent materiality level, we also concluded
that we could generate reliable small and microenterprise lending statistics from the
loan database. We then compared these statistics to USAID/Egypt’s planned targets
for 2001 to determine whether its small and microenterprise development activities
had progressed towards their intended 2001 targets. If a planned target was missed
by more or less than 10 percent, we interviewed Mission officials to determine the
cause. We also used the statistics to determine the extent to which USAID/Egypt’s
small and microenterprise activities were benefiting women and the poor.




                                                                                       13
                                                                                      Appendix II




Management
Comments

               /


                   UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT



CAIRO, EGYPT
/
/
MEMORANDUM


To:                David Pritchard, A/RIG/Cairo

From:              Anne Aarnes, D/DIR //Signed//

Date:              January 30, 2003

Subject:           Recommendation Closure Request - Audit of USAID/Egypt’s
                   Small and Microenterprise Development Activities (Report No.
                   6-263-03-XXX-P)


Attached please find a copy of the subject report dated December 17, 2002, (Attachment A).

The report contains two recommendations for USAID/Egypt (1) that the Director, USAID
Egypt not report in future Annual Reports lending results reported by the National Bank for
Development and Banque du Caire until data quality assessments of their respective results
can be performed; and (2) that the Director, USAID/Egypt, revise the performance monitoring
plans for the indicators “number of loans at poverty level” and “value of small and
microenterprise loans disbursed” to disclose that data quality assessments for results
reported by the National Bank for Development and the Banque du Caire could not be
performed due to bank secrecy laws in Egypt.

        The Mission agreed with the RIG/Cairo recommendations and explained the actions
taken or planned to be taken to resolve the audit recommendations. Following is the Mission
final response to the recommendations:

USAID Office Building
Plot 1A off El-Laselki Road                                                Tel: (202) 522 7000
New Maadi, Cairo - Egypt                                                   Fax: (202) 516 4628
Postal Code: 11435                                                              (202) 516 4659




                                                                                                 14
      Recommendation No. 1: We recommend that the Director, USAID/Egypt not
report in future Annual Reports lending results reported by the National Bank for
Development and the Banque du Caire until data quality assessments of their respective
results can be performed.

       The Mission reached agreements with both Banque Du Caire (BDC) and the National
Bank for Development (NBD) to conduct periodic data quality assessment of their respective
reported results to satisfy the data quality standards specified in ADS 203. As required, the
periodic data quality assessment will be conducted and documented in accordance with the
cited ADS guidance, and will specifically address the validity, integrity, precision, reliability
and timeliness of the reported results of the two banks.

      With regard to FY 2003 annual report, the Mission reported the number of “Loans at
Poverty Level” issued by the participating institutions in the optional indicator table. The
numbers reported included the poverty loans issued by BDC and NBD during FY 2002. The
Mission’s staff verified these numbers in accordance with ADS 203 guidance. Following are
the specific actions taken by the Mission in this regard:

Banque du Caire (BDC)

   •   We are providing a copy of the guarantee agreement signed between BDC and the
       Credit Guarantee Corporation (CGC) dated June 6, 2002 (Attachment B). Section 5,
       Article 4, and Section 6, Article 5, authorize CGC to conduct data quality assessments
       of BDC SME activities supported by USAID.

   •   The loan-tracking system installed in BDC is the same loan-tracking system installed
       in the six foundations for which the internal audit conducted full data quality
       assessments. The system was installed and is being maintained by the USAID
       technical assistance team. The reports generated by this database software fulfill all
       required USAID reporting requirements. These reports are submitted to CGC and
       USAID on a quarterly basis. Separately, the technical assistance team reports directly
       to USAID on BDC progress towards achieving the planned results. The primary source
       of reports generated and submitted to USAID by BDC and the TA contractor is the
       USAID SME loan-tracking system operating in the bank. This arrangement is adequate
       for USAID to verify and determine the accuracy of the reported results vis-à-vis the
       loan-tracking system. (a full set of a monthly report by BDC is provided as Attachment
       C)

   •   Despite the bank secrecy laws in Egypt that disallow access to the actual database,
       Mission staff were able to visit a random sample of borrowers to verify their existence
       because the borrowers have waived the secrecy provision and have granted access to
       their files for the purpose of data quality assessment. For the BDC results included in
       the Mission’s 2003 Annual Report, the USAID technical assistance team visited large
       numbers of reported BDC borrowers as part of the field training carried out in every
       branch office during the entire year. These visits are documented in the TA quarterly
       reports submitted to USAID throughout FY 2002. Because of these site visits, it is
       reasonable to conclude that loans are, indeed, being made to actual borrowers.




                                                                                                    15
National Bank for Development (NBD)

   •   We are providing the NBD written approval that allows the Mission to conduct periodic
       data quality assessment of their respective reported results to satisfy the data quality
       standards included in ADS 203 (Attachment D).

   •   As with BDC, the bank secrecy laws of Egypt disallow independent inspection of the
       NBD SME loan database. With regard to the Mission’s ability to visit a random sample
       of borrowers to verify their existence, the data quality assessment will be done
       according to ADS 203 guidance. Attached please find the monthly reporting of NBD
       results, as prepared by the bank (Attachment E).

   •   For the Mission’s FY 2003 annual report, please find a site visit report conducted by
       Mr. Rizkalla Zayat, Mission’s Project Officer, that covers a meeting with NBD
       management, including reporting on visits to 6 NBD SME borrowers (Attachment F).

       Based on the above, USAID/Egypt requests the closure of Recommendation No. 1.


      Recommendation No. 2: We recommend that the Director, USAID/Egypt, revise
the performance monitoring plans for the indicators “number of loans at poverty level”
and “value of small and microenterprise loans disbursed” to disclose that data quality
assessments for results reported by the National Bank for Development and the Banque
du Caire could not be performed due to bank secrecy laws in Egypt.

       Since the Mission will conduct data quality assessments, in accordance with ADS 203
guidance, of all the results reported by the participating SME institutions, including BDC and
NBD, we believe that the indicators should remain unchanged. However, based on our
understanding of Recommendation No. 2, should data quality assessments not be performed
in compliance with ADS 203 due to bank secrecy laws in Egypt, the Mission will disclose that
data quality assessments for results reported by any of the participating institutions,
including BDC and NBD, could not be performed.

       Based on the above, USAID/Egypt requests the closure of Recommendation No. 2.




                                                                                               16
